distribute 85 percent of the population and poverty funds on a pro rata basis according to
the LEAs’ public and private elementary and secondary school enrollment. The
remaining 15 percent is distributed to each LEA on a pro rata basis according to the
number of children living in poverty.

Each year in July, the Department provides a Grant Notification Letter to each State that
identifies the funding level for the flow-through components. Idaho allocates IDEA, Part
B, § 611 funds to 113 LEAs.


                                  AUDIT RESULTS
We determined that Idaho complied with the new IDEA, Part B, § 611 funding formula
for FY 2000 and 2001.

The following table represents the amounts Idaho was required to allocate for FYs 2000
and 2001, according to the Department’s Grant Notification Letters and the actual
amounts that Idaho allocated. We calculated negligible differences in funding amounts
due to the rounding of figures.

                                             Grant
                                           Notification                           Difference in
                                                               Idaho Actual
    Funding           Federal Fiscal         Letter                                 Funding
                                                                 Funding
   Component              Year              Required                             Amounts Due to
                                                                 Amounts
                                            Funding                                Rounding
                                            Amounts
 Total Minimum             2000            $18,306,155         $18,306,157                $2
 Flow Through to
      LEAs                 2001            $24,183,154         $24,183,151                $3

                           2000            $14,289,101         $14,289,095                $6
    LEA Base
    Allocation
                           2001            $14,289,101         $14,289,094                $7

                           2000             $4,017,054          $4,017,062                $8
      LEA
Population/Poverty
                           2001             $9,894,053          $9,894,057                $4

                           2000            $3,414,496*          $3,414,502                $6
 85% Population
   Allocation
                           2001            $8,409,945*          $8,409,946                $1

                           2000             $602,558*            $602,560                 $2
   15% Poverty
    Allocation
                           2001            $1,484,108*          $1,484,111                $3
* OIG calculations from the Population/Poverty figure in the Grant Notification Letter.


                                            2
              OBJECTIVE, SCOPE AND METHODOLOGY
The objective of our audit was to determine if Idaho complied with the new IDEA, Part
B, § 611 funding requirements for FY 2000 and 2001.
To accomplish our objective, we –

   •   Obtained Idaho’s formula allocation to all the LEAs, including the allocation
       breakdown of the base, population and poverty amounts for FYs 2000 and 2001.

   •   Interviewed state officials regarding the data used in the allocation formula, the
       methodology used in the formula, and other applicable policies and procedures.

   •   Recalculated the allocation for all Idaho LEAs.

   •   Performed limited data reliability tests on the data used in the allocation formula
       and found the data to be reliable for our purposes.

Our audit of Idaho’s formula allocation covered FYs 2000 and 2001. We performed
fieldwork from December 11 through December 13, 2001, at the State offices in Boise,
Idaho. A pre-exit conference was held on December 13, 2001 and the final exit
conference was held on March 27, 2002. Our work was performed in accordance with
generally accepted government auditing standards appropriate to the scope of the audit
described above.


             STATEMENT OF MANAGEMENT CONTROLS
As part of our review, we assessed the management control system of policies,
procedures, and practices applicable to Idaho’s compliance with IDEA, Part B, § 611.
Our assessment was performed to determine the level of control risk for determining the
nature, extent, and timing of our substantive tests to accomplish the audit objective.

Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in the
management controls.




                                             3
                          REPORT DISTRIBUTION LIST
                         CONTROL NO. ED-OIG/A06-C0003

Auditee                                             ED Action Official

Dr. Jana L. Jones                                   Dr. Robert H. Pasternack
Bureau Chief, Special Education                     Assistant Secretary
Idaho State Department of Education                 Office of Special Education and
650 West State Street                                Rehabilitative Services
P.O. Box 83720
Boise, ID 83720-0027

                              Other ED Officials/Staff (electronic copy)

Audit Liaison Officer                               Press Secretary
Office of Special Education and                     Office of Public Affairs
 Rehabilitative Services

Correspondence Control                              Assistant General Counsel
Office of General Counsel                           Office of the General Counsel

Assistant Secretary                                 Deputy Secretary
Office of Legislation and                           Office of the Deputy Secretary
    Congressional Affairs

Assistant Secretary                                 Chief of Staff
Office of Intergovernmental                         Office of the Secretary
   and Interagency Affairs

Director                                            Under Secretary
Financial Improvement and                           Office of the Under Secretary
   Post Audit Operations
Office of the Chief Financial Officer

Post Audit Group Supervisor                         Director
Financial Improvement and                           Office of Public Affairs
   Post Audit Operations
Office of the Chief Financial Officer

Indirect Cost Group Supervisor                      Regional Commissioner Rehabilitation Services
Financial Improvement and                           Administration, Region VI
   Post Audit Operations
Office of the Chief Financial Officer
